No: 14-830
IN THE
SUPREME COURT OF THE UNITED STATES
ATUL C. SHAH

PETITIONER:

VS.
MOTORS LIQUIDATION COMPANY GUC TRUST AND
MODERN EDUCATIONAL SYSTEM
RESPONDENTS:
ON PETITION FOR AN EXTRAORDINARY WRIT TO THE
SUPREME COURT OF THE UNITED STATES
PROOF OF SERVICE
I, ATUL C. SHAH , do swear or declare that on this date October 2, 2020 as required
by the Supreme Court Rule 29, I have served the enclosed PETITION FOR AN
EXTRAORDINARY WRIT on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to each
of them and with first class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Jeffery Rhodes
Dickstein Shapiro LLP
1825 Eye Street, NW
Washington, DC 2006
I declare under penalty of perjury that the foregoing is true and correct executed
on October 2, 2020.

*

k

Atul C. Shah, MD
2884 Manorwood Drive.
Troy, Michigan 48085*
f

AUSTIN KOSMATIN
Notary Public, State of Michigan
County of Macomb
My Commission Expires 11-22-2025

^ Acting in the County of

